  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General

                Summarized for Public release



    Review of CBP Actions Taken to Intercept
    Suspected Terrorists at U.S. Ports of Entry




     Office of Inspections and Special Reviews

OIG-06-43                                       June 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      June 23, 2006

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.

This report assesses the actions taken by Customs and Border Protection (CBP) to intercept
suspected terrorists at U.S. Ports of Entry. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
                              SUMMARIZED FOR RELEASE




OIG
Department of Homeland Security
Office of Inspector General

Introduction
                 We reviewed the procedures employed by the Department of Homeland
                 Security’s (DHS) Bureau of Customs and Border Protection (CBP) to
                 prevent known and suspected terrorists from entering the United States
                 through the country’s 324 air, land, and sea Ports of Entry (POE). In
                 February 2004, the CBP Office of Anti-Terrorism issued guidance to
                 standardize the targeting and screening of known and suspected terrorists
                 attempting to enter the United States.

                 This is a summary of a longer and more detailed report that has been
                 provided to program managers and Congress. Law Enforcement Sensitive
                 information has been removed from this version at the request of program
                 managers.


Results in Brief
                 CBP has improved information sharing capabilities within the
                 organization to smooth the flow of arriving passengers and increase the
                 effectiveness of limited resources at POEs. Earlier, officers at POEs
                 possessed limited information to help them resolve the identities of
                 individuals mistakenly matched to the terrorist watch list, but a current
                 initiative aims to provide supervisors at POEs with much more
                 information to help them positively identify and clear individuals with
                 names similar to those in the terrorist database. CBP procedures are
                 highly prescriptive and withhold from supervisors the authority to make
                 timely and informed decisions regarding the admissibility of individuals
                 who they could quickly confirm are not the suspected terrorist.

                 As CBP has stepped up its efforts to intercept known and suspected
                 terrorists at ports of entry, traditional missions such as narcotics
                 interdiction and identification of fraudulent immigration documentation
                 have been adversely affected. Recent data indicates a significant decrease
                 over the past few years in the interception of narcotics and the
                 identification of fraudulent immigration documents, especially at airports.
        Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                             Page 1
                                   SUMMARIZED FOR RELEASE



                      When a watchlisted or targeted1 individual is encountered at a POE, CBP
                      generates several reports summarizing the incident. Each of these reports
                      provides a different level of detail, and is distributed to a different
                      readership. It is unclear, however, how details of the encounter and the
                      information obtained from the suspected terrorist are disseminated for
                      analysis. This inconsistent reporting is preventing DHS from developing
                      independent intelligence assessments and may be preventing important
                      information from inclusion in national strategic intelligence analyses.

                      During an encounter with a watchlisted individual, CBP officers at the
                      POE often need to discuss sensitive details about the individual with law
                      enforcement agencies and CBP personnel in headquarters offices. Some
                      case details are classified. Because some CBP officers at POEs have not
                      been granted the necessary security clearance, they are unable to review
                      important information about a watchlisted individual and may not be able
                      to participate with law enforcement agencies in interviews of certain
                      individuals.

                      To improve the effectiveness of CBP personnel in their mission to prevent
                      known and suspected terrorists from entering the United States, we are
                      recommending that CBP: expand a biometric information collection
                      program to include volunteers who would not normally provide this
                      information when entering the United States; authorize POE supervisors
                      limited discretion to make more timely admissibility determinations;
                      review port of entry staffing models to ensure the current workforce is
                      able to perform the entire range of CBP mission; establish a policy for
                      more consistent reporting to intelligence agencies the details gathered
                      during secondary interviews; and ensure all counterterrorism personnel at
                      POEs are granted an appropriate security clearance.


Background
                      On a typical day, CBP processes over 1.1 million arriving passengers for
                      entry into the country at 324 POEs. It is the responsibility of CBP officers
                      to screen all arriving passengers for customs and immigration violations,
                      and to detect and prevent terrorists and weapons of mass destruction from
                      entering the United States, while simultaneously facilitating legitimate
                      trade and travel.


1
 A watchlisted person is a passenger whose name or other biographic data matches or is very close to that of a
person listed in the Terrorist Screening Center's database of approximately 200,000 names of known or
suspected terrorists. A targeted person is a non-watchlisted person who has been selected to be given additional
scrutiny at the port of entry only for this particular trip. Such selection would be based on a variety of expert
screening activities.
             Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                                  Page 2
                                  SUMMARIZED FOR RELEASE


                     When an international flight or passenger vessel bound for a U.S. airport
                     or seaport departs a foreign country, the airline or cruise line is required to
                     transmit to CBP a manifest that lists all passengers that are on board. The
                     airline or cruise line must send the manifest to CBP within fifteen minutes
                     of departure. The information contained in the manifest includes each
                     passenger’s name, date of birth, passport number, and the country that
                     issued the passport. Manifest information is processed in the Automated
                     Passenger Information System (APIS).

                     Computers screen passenger manifests and identify passengers that have
                     names similar to those on the terrorism watchlist – also called the Terrorist
                     Screening Database2 (TSDB) – or who have suspicious travel histories. If
                     queries of immigration, customs, and criminal record databases yield any
                     possibly derogatory information, or if the passenger’s name matches the
                     TSDB, additional information about the arriving passenger is sought. This
                     supplemental information might make it clear whether the traveler is or is
                     not the person listed in the TSDB. If this process confirms that the
                     arriving passenger may match a person listed in the TSDB, federal agents
                     in addition to CBP officers may be present when the watchlisted passenger
                     arrives.

                     Once all interviews have been completed, CBP decides whether to grant or
                     deny the passenger admission into the United States. If the decision is to
                     deny admission, the passenger is returned to the country from which he or
                     she traveled to the United States.

                     CBP officers we interviewed estimated that many secondary screenings
                     conducted at U.S. ports of entry are the result of false matches to names in
                     the TSDB. Using name-based methods to identify known and suspected
                     terrorists, an incoming passenger is often incorrectly identified as a match
                     to the individual listed in the TSDB. That the traveler is not the terrorist is
                     only established after the passenger arrives at the port of entry and is
                     interviewed. POE inspectors reported that the vast majority of false
                     positive matches to the TSDB are repeat screenings of individuals that
                     have been matched previously and at that time determined not to be the
                     person watchlisted in the terrorist database. First-time referrals to
                     secondary of individuals who are incorrectly matched to records in the
                     TSDB are probably unavoidable. As long as CBP relies on name-based
                     watchlists, passengers with names similar to known or suspected terrorists
                     will continue to be identified as possible matches to individuals in the
2
  The TSDB is a compilation of several lists maintained by separate agencies. It consolidates the Consular
Lookout and Support System (CLASS) and TIPOFF file from the Department of State; Interagency Border and
Inspection System (IBIS) from the Department of the Homeland Security; No-Fly and Selectee Lists from the
Transportation Security Administration (TSA); National Automated Immigration Lookout System (NAILS) and
Automated Biometric Identification System (IDENT) from the former Immigration and Naturalization Service
(INS); Violent Gang and Terrorist Organization File (VGTOF) and Integrated Automated Fingerprint
Identification System (IAFIS) from the FBI; and the Interpol Terrorism Watch List.
            Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                                 Page 3
                                  SUMMARIZED FOR RELEASE


                     TSDB, and referred for secondary inspection at a port of entry. However,
                     CBP officers told us numerous times that repeat matches on subsequent
                     trips of individuals previously determined not to be the individual in the
                     TSDB was an extremely inefficient use of their time.

                     One tool at the disposal of CBP that could be used to reduce the number of
                     repeat false positive matches is the U.S. Visitor and Immigrant Status
                     Indicator Technology (US-VISIT) program. US-VISIT collects and
                     retains biographic, travel, and biometric information, such as photographs
                     and fingerprints, of some foreign nationals entering and departing the
                     United States. American citizens, permanent residents, Canadian
                     nationals, and Mexican nationals with Border Crossing Cards are not
                     required to submit to US-VISIT screening upon entry into the United
                     States. The US-VISIT enrollment process involves electronic scanning of
                     the traveler’s left and right index fingers and the taking of a digital
                     photograph.3 Since the information collected under the US-VISIT
                     program is unique positive identifying information, it could be used to
                     immediately identify a passenger that had been previously screened in
                     secondary inspections upon entry into the United States. For example, a
                     Canadian citizen who shares a name with a known terrorist, but is not the
                     individual in the TSDB, is repeatedly referred to secondary inspections
                     each time she enters the United States. If she is allowed to enroll in the
                     US-VISIT program and provide biometric information, each subsequent
                     time she enters the United States, CBP officers would quickly identify her
                     as the person who has been previously interviewed and found not to be the
                     person listed in the TSDB – and admit her without another interview.

                     On April 26, 2005, the Washington Post published an Op-Ed essay that
                     directly relates to the subject. It was written by a frequent business
                     traveler whose name, Omar Khan, is similar to that of a watchlisted
                     terrorist. Mr. Khan is a Legal Permanent Resident of the United States. In
                     his essay, he provides a passenger’s perspective of the repeated screenings
                     to which he is subjected each time he returns to the United States from a
                     foreign trip. He also contrasts U.S. procedures to those he experiences
                     upon arrival in some of the other countries he frequently visits, where his
                     name still generates an alert but where POE procedures are less inflexible.
                     His essay is reprinted with permission in Appendix A.




3
 DHS Secretary Chertoff announced on July 13, 2005 that US-VISIT would be enhanced to collect ten finger
scans.



            Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                                 Page 4
                    Appendix A
                    Screening in Need of Sense, Washington Post, April 26, 2005




Screening in Need of Sense
Airline Databases and Bureaucracy Add Up to Wasted Resources

By Omar Khan
Post
Tuesday, April 26, 2005; A15

I'd like to share a personal experience that has ripple effects on our collective sense of "homeland
security." As the head of a global leadership consulting firm, I travel frequently in and out of the
United States. As a green card holder married to a U.S. citizen, I'd never had any problems doing so.
I grew up in New York, the son of a Pakistani consul general, attended Stanford University, lived
here as an adult. Emotionally, the United States has been my home for a long time.

Last October, returning to the United States from Canada, I was pulled aside for "secondary
inspection." I sighed but reconciled myself (after all, if it can happen to Ted Kennedy . . .) to what I
hoped would be a minor inconvenience.

We missed our flight. Finally, I was called in. Apparently airline databases respond only to names.
In parts of the world, Omar Khan is as common a name as John Smith. Although I have an
uncommon middle name, Saqib, the database isn't that sophisticated. Still, stopping every Omar
Khan doesn't seem very efficient to me.

I am a consultant, and I think in terms of effectiveness and efficiency. The weary immigration
supervisor told me that even pilots who fly the Toronto-La Guardia sector every week are stopped
repeatedly.

"You mean I have to go through this every time?" I asked. Apparently. I was warned to expect to
spend two to three hours each time attempting to get back into the country of which I am a legal
resident. This struck me as insane. How are we made safer by repeated security checks because of an
indiscriminate emphasis on generic names?

Earlier I'd had a similar experience in the Philippines. Another Omar Khan had written bad checks
there. But unlike the bureaucratic Department of Homeland Security, the immigration supervisor
there was empowered. After checking the facts and my passport, she waved me through. She
suggested how I could avoid being stopped in the future: Present myself at the appropriate ministry
and let them run a check, and then be given a document for future visits. As I had a long-term
consulting commitment with a firm there, I did so. The whole process took 30 minutes, and the
Philippine authorities and I are now spared a needless hassle and waste of time.

A month ago I came back to the United States. As predicted, there had been no update to the
database. It took more than two hours again. The exasperated immigration officers told me that they
had to process the same people, even if they could verify that they had already done so, because they
weren't allowed to use their judgment. One of their own supervisors had been detained for more than
three hours, even after showing his credentials!


                    Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                                         Page 5
                   Appendix A
                   Screening in Need of Sense, Washington Post, April 26, 2005


Because of global consulting assignments, I may be in and out of the United States 15 to 20 times a
year. I suggest that checking the same people on the same route each week is a sheer waste of
resources. During the last multi-hour fiasco the immigration guys and I consulted and came up with
some simple and immediately achievable solutions.

For one, database management should allow classification by more than first and last name. Anyone
can figure out a way of listing a cleared person's passport or green card number for immediate future
clearance. Thereafter, immigration could focus on those we are seeking.

Currently, nonresidents coming into the United States are photographed and fingerprinted, a 30-
second process. It would be simple to do the same for those pulled aside for secondary inspection,
even citizens or residents (if there are civil liberties concerns, people could be offered this choice).
That way, the next time, each person's photo and fingerprint, correlated if necessary with ID, would
show that he or she previously had been cleared. Limited resources could be better deployed.

Finally, and critically, it is a principle of leadership practice to empower people as close as possible
to where decisions have to be made. With clear parameters, immigration officers with years of
experience should be able to decide whether someone can be excluded from consideration.
Otherwise we're wasting the experience and judgment of the professionals we have.

When our ports are not fully protected, our borders are inadequately guarded, and only a portion of
imported cargo is X-rayed, it seems to me we have higher priorities than processing the same people
repeatedly.

The writer is a senior partner in Sensei International, a business consultancy.

© 2005 The Washington Post Company




                   Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                                        Page 6
Appendix B
Major Contributors to This Report




    Douglas Ellice, Chief Inspector
    Randall Bibby, Chief Inspector
    Philip Windust, Senior Inspector
    W. Preston Jacobs, Inspector




Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                     Page 7
Appendix C
Report Distribution


    Department of Homeland Security

    Secretary
    Deputy Secretary
    Chief of Staff
    Deputy Chief of Staff
    General Counsel
    Executive Secretariat
    Customs and Border Protection, Commissioner
    Customs and Border Protection, Audit Liaison
    Immigration and Customs Enforcement, Assistant Secretary
    Immigration and Customs Enforcement, Audit Liaison
    US-VISIT Program Office, Director
    Assistant Secretary for Legislative & Intergovernmental Affairs
    Assistant Secretary for Policy
    Assistant Secretary for Public Affairs
    Assistant Secretary for Intelligence and Analysis
    DHS GAO OIG Liaison

    Office of Management and Budget

    Chief, Homeland Security Branch
    DHS OIG Program Examiner

    Congress

    Congressional Oversight and Appropriations Committees, as appropriate




Review of CBP Actions Taken to Intercept Suspected Terrorists at U.S. Ports of Entry
                                     Page 8
                              REDACTED FOR RELEASE




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations,
call the OIG Hotline at 1-800-323-8603; write to Department of Homeland Security,
Washington, DC 20528, Attn: Office of Inspector General, Investigations Division –
Hotline. The OIG seeks to protect the identity of each writer and caller.
